IN THE UNITED STATES SUPREME COURT
SUPREME COURT CASE No.: 20-5724

Justin Lamar Johnson Sr. Civil action No.: 1:19 CV 2300
Plaintiff/Petitioner/Appellant Appeal No.: 20-3280
Vv. Judge:
Judge Joseph Gibson Noting Date:
Stephen Kandel Proof of Service

Lewis Guarnieri

Judge Chryssa Hartnett

Hope Konovsky

John Fererro

Mary Warlop

The Ohio Attorney General

The Attorney General for the United States

PROOF OF SERVICE

I, , do swear or declare that on this date, November 28% 2020 , as required by Supreme
Court Rule 29 I have served the enclosed PETITION FOR REHEARING, CERTIFICATE
OF COMPLIANCE, AND PROOF OF SERVICE, on each party to the above proceeding or
that party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days. The names and addresses of those
served are as follows:
Defendant No.: 1

Name: Stephen Kandel

Job or title: Attorney

Street Address: 116 Cleveland ave NW
City and County: Canton and Stark
State and Zip code: Ohio 44702
Telephone No: 3304534444

Defendant No.: 2

Name: Joseph Gibson

Job or title: Jidge

Street Address: 8261 Whitnev Lane
City and County: Painseville And Lake
State and Zip code: Ohio 44077
Telephone No:

Defendant No.: 8

Name: Chryssa Hartnett

dob or title: Judge

Street Address: 115 Central Plaza N
City and County: Canton and Stark
State and Zip code: Ohio 44702
Telephone No:

Defendant No.: 4

Name: Mary Warlop

Job or title: Attorney

Street Address: 116 Cleveland ave NW #51(
City and County: Cani rk

State and Zip code: Ohio 44702

Telephone No:

Defendant No.: 5

Name: Hope Konovsky

Job or title: Prosecutor

Street Address: 110 Central Plaza S
City and County: Canton and Stark
State and Zip code: Ohio 44702
Telephone No: 3304517897

Defendant No.: 6

Name: John Ferrero

dob or title: Prosecutor

Street Address: 110 Central Plaza S
City and County: Canton and Stark
State and Zip code: Ohio 44702
Telephone No?3304517897
Defendant No.: 7

Name: Lewis Guarnierri

Job or title: Prosecutor

Street Address: 5353 Vermouth st N.W.
City and County:North Canton and Stark
State and Zip code: Ohio 44720
Telephone No:

Defendant No.: 8

hio Attornev General
dob or title: Ohio Attorney General
Street Address: 30 East broad st.
City and County: Columbus and Franklin
State and zip code: Ohio 43215
Telephone No.:

Defendant No.: 9

ri
dob or title: The United States Attorney General
Street Address: 950 Pennsvlvania ave sw.
City and county: District of Columbia
State and zip: Washington, D.C. 20530

Executed on NOVEMBER 28th 2020
I declare under penalty of perjury that the foregoing is true and correct.
Justin Johnson

MW
